         CORPORATION
           --




         FOR NATIONAL




OFFICE OF THE INSPECTOR GENERAL




    Semiannual Report to the Congress

    April 1, 1996 - September 30, 1996
OFFICE OF THE INSPECTOR GENERAL




    Semiannual Report to the Congress
   April 1, 1996 - September 30, 1996




    CORPORATION FOR NATIONAL SERVICE
                                             TABLE OF CONTENTS

Introduction         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1

Auditing Activities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

          Summary of Audit Reports Issued During the Period
          April 1. 1996 ..September 30. 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .14

Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16
                                                                                                                                           .

          Statistical Summary of Investigations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .18

Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .19

Index to Reporting Requirements of the Inspector General Act                                      . . . . . . . . . . . . . . . . . . . . . . . . 25

Summary Report of Accomplishments for Fiscal Year 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . 26


TABLE I              ..         Inspector General Issued Reports with Questioned Costs
                                for the Six-month Period Ending September 30, 1996 . . . . . . . . . . . . . 21

TABLE I1             ..         Inspector General Issued Reports with Recommendations
                                That Funds Be Put To Better Use for the Six-month Period
                                Ending September 30, 1996 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

TABLE I11            ..         Summary of Audits with Overdue Management Decisions . . . . . . . . . . 23

TABLEIV              ..         Significant Reports Described in Prior Semiannual
                                Reports Without Final Action . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                                       INTRODUCTION

The Corporation for National and Community Service (CNS) was created under the National and
Community Service Trust Act of 1993. Through several programs, the Corporation offers
Americans of all ages and backgrounds the opportunity to participate in community-based service
programs. These programs include AmeriCorps State and National Direct grants, VISTA, the
National Civilian Community Corps, Learn and Serve America, and the Senior Volunteer Program.


      AUDITS AND REVIEWS OF AMERICORPS GRANTEES
During this reporting period, our audit resources focused on audits and reviews of AmeriCorps
grantee organizations. Audits and reviews are performed by both Office of the Inspector General
(OIG) staff and public accounting firms under contract to the OIG. We issued 19 reports on
grantees during this period. Another 11 audits and reviews were underway or had been contracted
for at fiscal year end. As illustrated in the table below, the audits and reviews have revealed issues
in several areas. We have recommended corrective actions and brought the issues to the
Corporation's attention for resolution. A brief discussion on the results of our work at each grantee
follows the table.
                                             - -




                                        Grant
              Grantee                  Amount


 Audits
 Northwest Service Academy
 [OIG 96- 12)                          $2,404,676

 Greater Miami Service Corps
 [OIG 96- 16)                           $625,000

 East Bay Conservation Corps
 (OIG 96-33)                           $1,096,439

 Georgia Department of Community
 Affairs (OIG 96-34)                   $4,824,949

 Los Angeles Conservation Corps
 [OIG 96-39)                           $1,000,000

 Bowie State University (OIG 96-5 1)    $283,445
                                           Grant           4-

                 Grantee                  Amount           2
                                                           V)




    Reviews'


I   National Center for Family
    Literacy (OIG 96-06)

    The Arc of the United States
    (OIG 96-07)                            $769,426    I / J


I-  National Association of Community
    Health Centers (OIG 96-08)           $1,443,06 1   I I
    Home Instruction Program for
    Preschool Youngsters (OIG 96- 1 1)     $361,947    1 I
I The Blackfeet Nation (OIG 96-17)         $568,744    1JI
    Fort Belknap Community
    Council (OIG 96- 19)                   $350,000    I / J
    Summerbridge National
    (OIG 96-24)                            $500,000    I I J
1 New York University (OIG 96-25)          $795,523    1                    No Findings

    National Council on Educational
    Opportunity Associations
    (OIG 96-29)                          $1,000,299               J    J               J    J

    Montana Conservation Corps
    (OIG 96-35)                            $975,715    I                    No Findings




    ' A review concentrates on specific areas of risk or grantee activities. Therefore, its procedures are less
    comprehensive than an audit and would not necessarily disclose all issues or reportable conditions.
AUDITS

Northwest Service Academy (OIG 96-12)

We performed an audit of costs incurred under grant agreement 93NMSTOR0007 to support the
Northwest Service Academy (NWSA). The former Commission on National and Community
Service awarded the grant under the National and Community Service Act of 1990. We found that
the majority of the $2.5 million of costs charged to the grant during the 30 month period were
allowable, allocable and in compliance with the grant award. However, we also found that NWSA

       made unallowable charges of $19,389 to the grant related to fund raising expenses;

       paid costs for members' room and board at its Mt. Adams residential site with grant funds
       rather than with program income as required (as a result, we questioned $23,358 in related
       costs);

       exceeded the five percent limitation on administrative costs that can be charged to the grant
       (we questioned $43,955 in related costs); and

       allowed prohibited lobbying material in one issue of its newsletter.

We also noted weaknesses in NWSAYsmanagement controls over financial reporting and tracking
of service hours for post-service education benefits.


Greater Miami Service Corps (OIG 96-16)

Tichenor & Associates, under contract to the OIG, performed an audit of costs incurred under grant
92COLOFL0032, awarded to the Greater Miami Service Corps (GMSC). The former Commission
on National and Community Service awarded the grant under the National and Community Service
Act of 1990.

The auditors found that GMSC did not comply with the award in the performance of the program,
and that GMSC's system of internal controls did not ensure compliance with Federal regulations or
ensure the safeguarding of Federal funds. As a result, we questioned all costs claimed for this grant,
$625,000. The audit also disclosed that GMSC

       misreported program results, including the overall success of the program. Of 168
       participants paid under the grant, only 18 completed the program using GMSC criteria (i.e.,
       12 months in the program constitutes a successful term of service) and only 22 completed
       the program utilizing the criteria accepted by the Commission of 9 months constituting an
       acceptable program duration. GMSC had reported that the program was extremely
       successful and that 62 percent of its participants completed its programs during the first grant
       year;

       placed participants in internship programs where they worked as full-time lifeguards,
       cafeteria workers, school maintenance and janitorial workers, and Dade County trade
       workers. The activities performed by the interns were not allowable activities for this grant
       because the services provided by the interns were for county positions in on-going operations
       such as schools and swimming pools, and not in response to, or related to recovery from the
       disaster. These placements violated Disaster Grant General Provision 2, Section 10 (c),
       Nondisplacement, which, in part, prohibits the use of Federal grant funds for service
       activities that would supplant potential full or part-time employees;

       did not have support for matching costs;

       enrolled and paid stipends to participants who did not meet the citizenship or residency
       requirements under the grant; and

       GMSC charged to the grant amounts for post-service benefits paid to individuals who were
       not enrolled in the grant funded program, and paid post-service benefits for purposes that
       violated Public Law 101-610.


East Bay Conservation Corps (OIG-96-33)

Leonard G. Birnbaum & Company, under contract to the OIG, performed an audit of costs incurred
under grant 93SSSPCA0003, awarded to the East Bay Conservation Corps (EBCC). The former
Commission on National and Community Service awarded the grant under the National and
Community Service Act of 1990.

The audit did not disclose any questioned costs; the auditors did note the following instances of non-
compliance

       EBCC did not submit to CNS the final report summarizing usage of benefits, number of
       participants and type of usage, which was required to be submitted on February 28, 1995;
       and

       EBCC did not adequately record matching funds.


Georgia Department of Community Affairs (OIG 96-34)

Leonard G. Birnbawn & Company, under contract to the OIG, performed an audit of costs
incurred under grant 92NMSTGA0002, awarded to the Georgia Department of Community Affairs
(GDCA). The former Commission on National and Community Service awarded the grant under
the National and Community Service Act of 1990. Based on the results of the audit, we questioned
costs totaling $47,789, primarily for administrative costs claimed by GDCA in excess of the grant
terms and conditions. The audit also disclosed that GDCA had not submitted final technical and
financial reports as required by the grant conditions.


Los Angeles Conservation Corps (OIG 96-39)

Leonard G. Birnbaum & Company, under contract to the OIG, performed an audit of costs
incurred under grant 92COLOCA0009, awarded to the Los Angeles Conservation Corps (LACC).
The former Commission on National and Community Service awarded the grant under the National
and Community Service Act of 1990.

Based on the results of the audit, we questioned costs totaling $58,772 because LACC claimed costs
in excess of the share ratio stipulated in the grant ($26,966) and claimed costs as part of the matching
requirement that were not considered allowable for matching purposes ($3 1,276). The audit also
disclosed that LACC did not

.       submit a financial report with accurate data nor did the grantee include all required
        information in the financial report;

        retain progress reports for the time specified by OMB Circular A- 110; and

        maintain procedural guidance or documentation evidencing compliance nor facilitating a
        compliance determination with certain special and general provisions of the grant.


Bowie State University (OIG 96-51)

Leonard G. Birnbaum & Company, under contract to the OIG, performed an audit of the funds
awarded by CNS under grant 94ASCMD02105 to Bowie State University (BSU) through the
Maryland Commission on Service. The funds were awarded to support the Maryland Students
Taking Academic Responsibility for Tomorrow (MSTART) program operated by Bowie State
University, Anne Arundel Community College (AACC), and University of Maryland at College
Park (UMCP). BSU was considered the prime recipient of the grant. The audit efforts focused
primarily on the programs administered by BSU and AACC.

Based on the results of the audit, we questioned costs totaling $6,110, primarily for claimed costs
in excess of the maximum share ratio for administrative costs ($1,46 1) and because cost matching
requirements were not met ($4,572). The audit also disclosed that BSU lacked adequate controls
for monitoring subrecipients; an adequate system to monitor participant hours spent in training and
education activities; and an adequate system to track cost sharing contributions.
REVIEWS

National Center for Family Literacy (OIG 96-06)

We performed a limited review of the National Center for Family Literacy's (Family Literacy Corps)
accounting and financial reporting systems and management controls to assess their ability to
comply with Federal fiscal accounting and Corporation for National and Community Service (CNS)
grant requirements.

We found that the Family Literacy Corps' accounting system and system of management controls
did not report grant expenditures in accordance with grant requirements or safeguard Federal funds.
Our conclusion was based on the following conditions

       inadequate monitoring of work sites;

       overstated AmeriCorps member service hours;

       inappropriate AmeriCorps member service activities at Family Literacy Corps' Atlanta Site;
       and

       inadequate accounting policies and procedures.

Based on the results of our work we questioned $514,006 of costs charged to the grant ($227,147
in Federal funds and $286,859 in non-Federal funds).


The Arc of the United States (OIG 96-07)

We performed a limited review of The Arc of the United States' (The Arc) financial reporting and
accounting systems and management controls to assess their ability to comply with Federal fiscal
accounting and Corporation for National Service (CNS) grant requirements.

We found that The Arc's accounting systems and system of internal controls were not adequate to
report grant expenditures in accordance with grant requirements and to safeguard Federal funds. The
conditions leading to this conclusion included inadequate

       monitoring of subgrantees;

       accounting policies and procedures;

       tracking of labor hours and AmeriCorps Member service hours; and

       support for in-kind costs.
We questioned $1 1,571 in costs charged to the grant and recommended a reduction of matching
costs of $16,569.


National Association of Community Health Centers, Inc. (OIG 96-08)

We performed a limited review of the National Association of Community Health Centers, Inc.
(NACHC) financial reporting and accounting systems and management controls to assess their
ability to comply with Federal fiscal accounting and CNS grant requirements.

Based on our review we concluded that NACHC7s accounting systems and system of internal
controls are generally adequate to report grant expenditures in accordance with grant requirements
and to safeguard Federal funds. However, our review identified several conditions which warrant
correction including inadequate accounting for service hours by NACHC headquarters, an outdated
indirect cost rate at the Providence, Rhode Island operating site, and a lack of separation of duties
at the Denver, Colorado operating site. We questioned $18,759 of the Providence site's
administrative match as of January 3 1, 1996 related to the outdated indirect cost rate.


Home Instruction Program for Preschool Youngsters, USA (OIG 96-11)

We performed a limited review of the Home Instruction Program for Preschool Youngsters, USA
(HIPPY) financial reporting and accounting systems and management controls to assess the
organization's ability to comply with Federal fiscal accounting and CNS requirements.

We found that personnel charges for certain staff were charged entirely to program costs even though
some of their duties involved administrative tasks. In our view, these staff costs should be allocated
between administrative and program activities. However, HIPPY staff does not distinguish between
administrative and program activities when completing time sheets, therefore, we were unable to
determine the percent of actual time spent performing program activities. If these costs are classified
as administrative, HIPPY is at risk of exceeding the five percent administrative limit established in
the National and Community Service Act of 1990, as amended, on administrative costs that can be
paid with CNS funds. In addition, we found that HIPPY did not adequately monitor living
allowances paid to AmeriCorps Members.


The Blackfeet Nation (OIG 96-17)

M.D. Oppenheim & Company, under contract to the Office of Inspector General, performed a
limited review of the Blackfeet Nation's financial reporting and accounting systems to assess their
ability to comply with Federal fiscal accounting and reporting requirements applicable to its
AmeriCorps grant, as well as its ability to safeguard related funds.
Based on their review, we concluded that the Blackfeet Nation's accounting systems and system of
internal controls were not adequate to report grant expenditures in accordance with grant
requirements and to safeguard Federal funds. The auditors found that the Blackfeet Nation's

       accounting system does not track its grant costs or matching share on the same basis as the
       budget and that the total match provided included some unallowable costs and was
       insufficient to meet either the individual line-item matching requirements or the total
       matching share required under the grant;

       made several purchases that were unauthorized and not within Federal guidelines which were
       charged both to CNS funds or as a matching share (we questioned $10,291);

       Financial Status Report, at June 30, 1995, contained several mathematical and other errors
       resulting in an overstatement of $18,000 of the unobligated balance;

       ArneriCorps members were not advised of CNS' and other Federal policies regarding
       prohibited lobbying activities; and

       final Single Audit Act report (OMB Circular A-128), for the fiscal year ended September 30,
       1994, had not been issued on a timely basis. The report delivered by the Blackfeet Nation's
       independent auditors as a draft report was incomplete. It was missing the Independent
       Auditor's Report and all of the financial statements.


Fort Belknap Community Council (OIG 96-19)

M.D. Oppenheim & Company, under contract to the Office of Inspector General, performed a
limited review of the Fort Belknap Community Council's (FBCC) financial reporting and accounting
systems to assess their ability to comply with Federal fiscal accounting and reporting requirements
applicable to its AmeriCorps grant, as well as its ability to safeguard related funds.

Based on their review, we concluded that FBCC's accounting systems and system of internal
controls were not adequate to report grant expenditures in accordance with grant requirements and
to safeguard Federal funds. M.D. Oppenheim & Company noted the following deficiencies

       FBCC's accounting system does not track its matching share on the same basis as the budget.
       Consequently, it is not possible to determine whether the grantee had met its matching share
       requirements, on a major budget line-item basis;

       bank reconciliations were not performed on a timely basis; and

.      the Federal Cash Transaction report was not reconciled to the general ledger.
Summerbridge National (OIG 96-24)

M.D. Oppenheim & Company, under contract to the Office of Inspector General, performed a
limited review of Summerbridge National's financial reporting and accounting systems to assess
their ability to comply with Federal fiscal accounting and reporting requirements applicable to its
ArneriCorps grant, as well as its ability to safeguard related funds. We have reviewed the report and
workpapers supporting its conclusions and agree with the findings and recommendations presented.

Based on their review, we concluded Summerbridge National's accounting systems and system of
internal controls were not adequate to report grant expenditures in accordance with grant
requirements and to safeguard Federal funds. M.D. Oppenheim & Company found that
Summerbridge National's

       accounting system did not record its matching share costs in compliance with the budget
       line-items;

.      did not maintain written contract agreements between the AmeriCorps program and its
       subrecipients; and

       staff time records were not signed by the employee nor approved by their supervisor.


New York University (OIG 96-25)

Tichenor & Associates, under contract to the OIG, performed a limited review of New York
University (NYU) financial reporting and accounting systems and management controls to assess
the organization's ability to comply with Federal fiscal accounting and CNS requirements.

Based on Tichenor & Associates' review we concluded that NYU's accounting systems and system
of internal controls were generally adequate to report grant expenditures in accordance with grant
requirements and to safeguard Federal funds. There were no findings or recommendations.

National Council of Educational Opportunity Associations (OIG 96-29)

We performed a limited review of the National Council of Educational Opportunity Associations'
(NCEOA) financial reporting and accounting systems and management controls to assess their
ability to comply with Federal fiscal accounting and CNS grant requirements.

With certain exceptions, we found that NCEOA's accounting and reporting systems and
management controls appear adequate to safeguard Federal funds and to report grant expenditures
in accordance with Federal requirements. However, we also found that NCEOA

        did not document administrative costs as required by CNS' regulations;
a      lacked adequate documentation to support third-party in kind contributions;

       allocated salary and benefit costs for two NCEOA headquarters staff performing
       administrative duties to the grant as direct program support;

       allocated development staff salaries to the grant; and

a      inappropriately charged $748 in salary and benefit costs to the grant.

Based on the results of our review, we questioned a total of $35,979 in costs charged to the grant,
primarily for undocumented administrative costs.


Montana Conservation Corps (OIG 96-35)

Leonard G. Birnbaum and Company, under contract to the OIG, applied certain agreed-upon
procedures, as discussed below, to amounts claimed by the Montana Conservation Corps, Inc.
(MCC) under grant 92COSTMT00 16. The former Commission on National and Community
Service awarded the grant under the National and Community Service Act of 1990. The procedures
performed included

       reviewing certified financial statements for the three fiscal years in which the grant was
       performed and determining that the independent auditor's reports and the financial statements
       conformed to applicable generally accepted auditing standards, Government Auditing
       Standards and Office of Management and Budget Circular A-1 33;

       reviewing the audit programs, prepared by MCC's independent auditor, related to the
       financial statements, internal controls, and compliance with laws and regulations for each of
       the three years and determining that they were appropriate to the circumstances;

       sampling individual audit steps and determining that the audit programs had been executed
       as planned;

       determining that MCC's chart of accounts and resulting trial balances adequately segregated
       and accumulated the costs applicable to the grant;

       determining that the findings cited by the independent auditor did not result in a material
       misstatement of the amounts claimed; and

       determining that no Federal cash remained in the hands of MCC upon completion of grant
       performance.
Based on the results of applying the above procedures, Leonard G. Birnbaum and Company
concluded that the costs incurred, as reflected on the certified financial statements were accurate and
in conformance with the terms and conditions of the grant and could be considered as forming the
basis for grant close-out.


I Have A Dream Foundation (OIG 96-37)

Tichenor & Associates, under contract to the OIG, performed a limited review of the I Have A
Dream Foundation's (IHAD) financial reporting and accounting systems and management controls
to assess the organization's ability to comply with Federal fiscal accounting and CNS requirements.

Based on their review, we concluded that IHAD's accounting systems and system of internal controls
were not adequate to report grant expenditures in accordance with grant requirements and to
safeguard Federal fbnds. The auditors noted that IHAD did not

        adequately monitor subgrantee financial data;

        ensure labor hours charged to the CNS grant are allowable and allocable;

        track matching costs in their grant accounting system; and

        have written agreements with its subgrantees.

As a result of the findings we questioned $3,630.78 in costs charged to the grant.


Oneida Indian Nation of New York (OIG 96-41)

Tichenor & Associates, under contract to the OIG, performed a limited review of the Oneida Indian
Nation of New York's (the Nation) financial reporting and accounting systems and management
controls to assess the organization's ability to comply with Federal fiscal accounting and CNS
requirements.

During their review, Tichenor and Associates found that the Nation claimed costs in excess of the
share ratio stipulated in the grant. As a result, we questioned costs charged to the grant totaling
$1 1,946.


Mid-Atlantic Network of Youth and Family Services (OIG 96-43)

Tichenor & Associates, under contract to the OIG, performed a limited review of the Mid-Atlantic
Network of Youth and Family Services' (MANY) financial reporting and accounting systems and
management controls to assess the organization's ability to comply with Federal fiscal accounting
and CNS requirements.

Based on their review, we concluded that MANY'S accounting systems and system of internal
controls were not adequate to report grant expenditures in accordance with grant requirements and
to safeguard Federal funds. The auditors noted that MANY

       did not have written agreements with its subgrantees;

       needs to improve its monitoring of subgrantees' financial data;

       did not adequately track labor hours to ensure that lobbying and fundraising activities were
       not charged to the grant which resulted in questioned costs of $5,261; and

       submitted inaccurate FSRs.


OTHER MATTERS

City Year Audit Follow-up

OIG continued to monitor City Year of Boston's actions to correct accounting, management controls
and compliance deficiencies found in audits by OIG and KPMG Peat Marwick LLP, City Year's
independent auditor. In September we met with KPMG and City Year officials to assess City
Year's progress and reviewed City Year's FY 1995 audit reports and KPMG's underlying work.

Our follow-up assessment indicates that over the past two years, City Year had corrected most of
the conditions reported by OIG and KPMG. On June 18, 1996, KPMG reported that during its audit
of City Year's fiscal year 1995 financial statements, it found no material weaknesses in internal
controls and no material instances of noncompliance with applicable Federal requirements. It is
clear that City Year and its advisors devoted serious efforts to a methodical and appropriate
corrective action plan. As a result, City Year has made remarkable progress.

In August the Boston Globe published an article discussing, among other matters, City Year's
previous audits. The Globe also published an editorial on City Year's experience. The editorial
discusses the need for an appropriate balance between program mission and program administration.
We requested and received permission to reprint the editorial because our work has revealed that
there is much that can be learned by CNS and its grantees from City Year's experience.
               City Year's learning experience
          City Year, a national example of youth activism      vantaged homes. Both the Bush and Clinton ad-
      and civic responsibility, has not been an exemplary      ministrations r e c o p z e d its potential as a model
       model of fiscal management for nonprofit organi-        for community antl national service and rewarded
      zations. A report Sunday by Globe staffers Kate          the organization, which originally raised all its
      Zernike and Adrian Walker revealed that federal          funds privately, with generous federal grants.
      auditors had cited the youth service organization            Such growth spurts gave City Year strong fi-
      for failure to document adequately almost $2 rnil-       nancial capacity and the ability to expand to other
      lion in salaries and expenses several years ago.         cities. But it also taxed the capacity of the founders
      Auditors also questioned why only $213,355 of an         to remain true to their original mission of provid-
      $821,250 government grant was used for its in-           ing both reliable service and accountability within
      tended purpose - postservice scholarships for            the corps. In a few of the Boston schools served by
      corps members. City Year was required to repay           City Year, for example, principals found that some
      $250,000 of that sum.                                    corps members lacked the skills and maturity to
          There are no allegations of improper use of          help their students. City Year managers have the
      funds. The fiscal year 1993 audit focused on a peri-     unenviable task of satisfying their service constitu-
      od characterized by confusing regulatory and re-         ents while helping corps members who lack strong
      porting changes for federal grants. Rut there is         educational backgrounds. The ability to do both
      strong evidence that City Year, through arrogance        consistently wdl be the touchstone for national-ser-
      or inespel-ience, dismissed the importance of r e        vice programs.
      cord-keeping and basic accounting practices dur-             Other nonprofit groups watch sympathetically.
      ing the early 1990s.                                     They are also under much pressure to expand
          The immediacy of a social cause - be it saving       their good works. Like City Year, they may be too
      cities, advocating for political prisoners or serving    distracted to adopt reliable accounting and train-
      the indigent - can create self-importance in non-        ing models. They ignore the mundane, however, a t
      profit agencies that get carried away with their         much risk. Good management and great causes are
      own hype. Where such attitudes exist, the every-         not mutualiy exclusive.
      day basic tools of the well-run office, such as time         Private foundations should apply pressure and
      sheets, authorization systems and purchasing or-         help where needed. Methods could range frow ear-
      ders, are in danger of becoming mere distractions.       marking portims of their & for information and
      Personnel qualified to set up and maintairl fiscal       accounting systems to shifting some resources
      accountability, if they are present at all, are rarely   away from t.he sexier organizations to smaller,
      brought into the top management circles, which           hungrier ones.
      are reserved for so-called visionaries, program di-          But by no means should City Year's past prob-
      rectors and image makers.                                lems be used as an excuse by congressional Re-
          City Year appears to have learned these les-         publicans or anyone else to diminish AmeriCorps,
      sons hefore the damage was irreversible. Accord-         the domestic Peace Corps that supports 430 grant-
      ing to its president. Michael Brown, the agency          ees, including City Year. AmeriCorps's chairman,
      ha. undertaken a lnethodical review of its fiscal        Harris Wofford, exiresses confidence in City Year
      antl personnel systems. An audit by the firm Peat        and is examining its past problems to ensure ade-
      Manvick for fiscal year 1995, according to Brown,        quate evaluation systems and accepted accounting
      shows "no material weaknesses or reportable con-         practices for all AmeriCorps grantees.
      ditions."                                                    City Year and sirmlar national-service pro-
          When it was founded in 1987, City Year pro-          grams are greatly needed to offer stren@h to
      vided an extraordinm opportunity for turning             neighborhoods in decline. Public officials, residents
      youthful idealism into community activism through        and institutional leaders in those neighborhoods
      a highly motivated corps of young people who             often haven't had a detailed plan or quality man-
      tackled tough urban assignments, from redeeming          agement. That's the road to gradual failure for
      trash-strewn l o t s " ~tuturing children from disad-    n4ighborhoode and organizations alike.


Reprinted courtesy of the Boston Globe Company: "Cify Year's learning experience," a Boston Globe editorial which
was published on page A 14 on August 22, 1996.
             AUDIT REPORTS ISSUED DURING THE PERIOD
              APRIL 1,1996 THROUGH SEPTEMBER 30,1996
                                                                  Federal       Federal
Report   Start   Issue                                            Dollars       Dollars
Number   Date    Date                Report Name                 Questioned   Unsupported

                                                                      (Dollars in thousand)

                         Review of the National Center for
                         Family Literacy, Louisville, Kentucky
                         Review of The Arc of the United
                         States, Arlington, Texas

                         Review of the National Association of
                         Community Health Centers, Inc.,
                         Washington, DC

                         Review of the Home Instruction
                         Program for Preschool Youngsters,
                         USA, New York, New York
                         Audit of Commission Grant:
                         Northwest Service Academy Corvallis,
                         Oregon

                         Audit of Commission Grant: Greater
                         Miami Service Corps, Miami Florida


                         Review of the Blackfeet Nation,
                         Browning, Montana


                         Review of the Fort Belknap
                         Community Council, Harlem, Montana


                         Review of Summerbridge National,
                         San Francisco, California

                         Review of New York University, New
                         York, New York
                         Review of National Council on
                         Educational Opportunity Associations,
                         Washington, DC

                         Audit of the East Bay Conservation
                         Corps, Oakland, California
                 AUDIT REPORTS ISSUED DURING THE PERIOD
                  APRIL 1,1996 THROUGH SEPTEMBER 30,1996
                                 CONTINUED
                                                                        Federal       Federal
Report   Start       Issue                                              Dollars       Dollars
Number   Date        Date                  Report Name                 Questioned   Unsupported

                                                                         (Dollars in thousand)

                    4/26/96    Audit of the Georgia Department of              48                1
                               Community Affairs, Atlanta, Georgia

                    511 1/96   Audit of Montana Conservation Corps,
                               Inc., Bozeman, Montana

                    5/13/96    Review of the I Have A Dream
                               Foundation, New York, New York

                    6/25/96    Audit of the Los Angeles Conservation
                               Corps, Los Angeles, California

                    8/09/96    Review of the Oneida Indian Nation of
                               New York, Oneida, New York

                    8/09/96    Review of the Mid-Atlantic Network
                               of Youth and Family Services,
                               Pittsburgh, Pennsylvania

                    9130196    Audit of Bowie State University,
                               Bowie, Maryland

                               TOTAL
                                   INVESTIGATIONS

We began this reporting period with twenty-two previously-opened investigative actions. During
the reporting period we opened twenty-two new investigative actions and closed eighteen. We had
twenty-six investigative actions pending at the end of this reporting period.

The following highlight our investigative activity during this reporting period:

Alleged Unlawful Access to Electronic Mail        - Prosecution Declined - Management Takes
Administrative Action

We completed an investigation into an allegation that a Corporation employee unlawfully accessed
the stored electronic mail (e-mail) of a Corporation official. Our investigation disclosed evidence
to substantiate the allegation and we obtained a confession from the employee. The U.S. Attorney
declined to prosecute in favor of administrative action and we referred the matter to the Corporation
for action as they deemed appropriate. During this reporting period we were advised by
management that, as a result of the misconduct, the employee had been suspended without pay for
two days.

Alleged False Claim - Prosecution Declined - Management Takes Administrative Action

We completed an investigation into an allegation that a senior Corporation employee received and
negotiated a U.S. Government travel reimbursement check, then reported that he had not received
the check, resulting in his being issued a second travel reimbursement check which he also received
and negotiated. Our investigation disclosed evidence that tended to substantiate the allegation,
however the subject denied criminal intent, stating it was a mistake. The U.S. Attorney declined to
prosecute in favor of administrative action and the matter was referred to the Corporation for action
as they deemed appropriate. During this reporting period we were advised by management that they
recovered the $610.24 travel reimbursement and dismissed the employee.

Alleged Theft - Prosecution Declined

We completed an investigation into allegations that a VISTA at the Helping Ourselves Means
Education (HOME) project in Tacoma, WA, received a VISTA subsistence allowance for periods
of time that the volunteer did not report to the project. Our investigation disclosed some evidence
to support the allegation, however, prosecution was declined by the U.S. Attorney. The declination
was based in part upon the amount of federal funds involved, the difficulty involved with proving
intent, the possibility that the VISTA no longer lived within Washington, and the dissolution of
HOME.
Alleged Violation of Grant Provisions - Management Decides Not to Renew Grant

We completed an investigation into allegations that some Green Corps AmeriCorps Members were
involved in prohibited political advocacy. Our investigation disclosed evidence that staff members
of the University of California - Santa Barbara (UCSB) chapter of the California Public Interest
Research Group (CALPIRG), a Green Corps local partner responsible for providing oversight to
AmeriCorps Members, directed, condoned and allowed the use of some AmeriCorps Members to
recruit new CALPIRG members, thereby providing a direct benefit to CALPIRG. Further, evidence
was found to indicate that CALPIRG directed, condoned and allowed ArneriCorps Members to train
and guide CALPIRG members in their efforts to conduct CALPIRG-sponsored petitioning drives
intended to influence legislation. Although outside the initial scope of the investigation, information
was also developed that indicates some AmeriCorps Members at the UCSB CALPIRG site did not
record or report service hours performed, or did so only at the end of the service year. In a letter
dated August 9, 1996, Corporation management advised Green Corps that their grant renewal
application was not selected for funding. As of September 30, 1996, Green Corps' request for
reconsideration of Corporation management's decision was pending before the Chief Executive
Officer (in accordance with the Corporation's established procedures).

Alleged Misconduct - Unsubstantiated

We completed a preliminary inquiry subsequent to receiving information that a Corporation
employee was detailed to a Senate committee and also elected to a seat on the Democratic National
Convention (DNC). Our inquiry found no evidence to indicate any impropriety surrounding the
detail of the employee to the Senate committee or that the employee violated any provisions of the
United States Code or the Code of Federal Regulations while seeking, or by being elected to, a state
seat on the DNC.
                      STATISTICAL SUMMARY OF INVESTIGATIONS



Opened and Closed


Number of Cases Open at Beginning of Reporting Period ..............................

Number of New Cases Opened During This Reporting Period .......................


Number of Cases Closed During This Period With
 . .        . .
Sign~ficantFindings.........................................................................................

Number of Cases Closed During This Period With
    . .         . .
No Significant Findings ...................................................................................


Total Cases Closed This Reporting Period ......................................................


Number of Cases Open at End of Reporting Period ........................................

Referred


Number of Cases Referred for Prosecution During
This Reporting Period ......................................................................................


Number of Cases Accepted for Prosecution During
This Reporting Period......................................................................................

Number of Cases Declined for Prosecution During
This Reporting Period......................................................................................


Number of Cases Pending Prosecutive Review...............................................
           REVIEW OF LEGISLATION AND REGULATIONS

Section 4(a)(2) of the Inspector General Act directs the Office of the Inspector General to review and
make recommendations about existing or proposed legislation and regulations relating to the
Corporation's programs and operations. The OIG recommendations, which are to be included in its
Semiannual Reports, are to specifically address the impact of the legislation and regulations on the
economy and efficiency of the administration of CNS' programs and operations. The OIG is also to
make recommendations in its Semiannual Reports concerning the impact of the legislation and
regulations on prevention and detection of fraud and abuse in programs and operations administered
or financed by the Corporation.

Under the National and Community Service Act of 1990, as amended, Congress must reauthorize
the Corporation's programs before the end of Fiscal Year 1997.2 To date, there has been no specific
legislation proposed to reauthorize Corporation programs under the Act. As proposed legislation
to reauthorize the Corporation is introduced, OIG will fulfill its responsibility under section 4(a)(2)
of the IG Act to review the legislation and make recommendations concerning the impact of the
proposed reauthorization on CNS's programs and operations. In addition, to ensure that our planned
work will meet the needs of the Corporation's Congressional authorizing Committees, we have and
will continue to solicit the views and concerns of the Committee Chairs and Ranking Minority
Members.

Section 4(a)(2) of the Inspector General Act only requires OIG to review the Corporation's existing
and proposed regulations. However, CNS has adopted the practice of using less formal means than
regulations to impose requirements, issue instructions, and provide guidance to its grantees. These
more informal means (including Notices of Funds Availability, Policy Statements, Program
Guidelines, Grant Application Instructions, Grant Provisions, Updates, Memoranda and other
documents) often affect CNS programs and grantee operations as significantly as CNS's regulations
included in the Code of Federal Regulations. Accordingly, OIG has asked CNS management to
give OIG the opportunity to review and comment on all documents intended to set or reiterate
policies regarding CNS programs and operations.

Based on our review of several Corporation's informal policy-setting documents and the results of
our work, we have some suggestions to improve the economy and efficiency of the Corporations
programs; specifically,




2 ~ h National
       e        and Community Service Trust Act amended the National and Community Service Act of 1990 and
authorized appropriations for the covered CNS programs through Fiscal Year 1996. In addition, the National and
Community Service Act, 42 U.S.C. 12641, makes the provisions of 20 U.S.C. 1226a applicable to CNS's authorizing
statute. Section 1226a provides for an automatic one-year extension of authorization of any covered program, unless
the Congress enacts a law reauthorizing or repealing the prior authorization.
       In our audits, reviews and investigations, we have noted that some AmeriCorps programs
       have had problems documenting the service activity of their AmeriCorps Members. We
       suggest that the Corporation specifically require that all applications for new grant awards
       and renewals describe how the applicant will document that AmeriCorps Members are
       preforming sufficient hours of allowable service to successfully complete their service
       requirements and qualify for an education award from the National Service Trust Fund.

       In our audits and reviews, we have noted that the Corporation's grantees and subrecipients
       sometimes do not have the financial systems needed to meet Federal accounting and
       reporting requirements and safeguard grant funds. We suggest that the Corporation
       specifically require that all applications for new grant awards and renewals describe the
       applicant's financial management systems. The description should include statements on
       whether the applicant has received Federal funds in the past, whether the applicant has been
       audited, and whether the applicant has been audited subject to Federal requirements. In
       addition, applicants should be required to provide us any audit reports they have received in
       the past five years.

       So far, our audit work and investigations have revealed only a few instances where we found
       evidence to conclude that AmeriCorps programs violated the prohibitions on advocacy,
       religious and other improper service activity. However, even isolated instances of these
       prohibited activities can significantly affect the overall integrity of the ArneriCorps National
       Service Network. Accordingly, we suggest that the Corporation specifically require all
       applications for new grant awards and renewals to describe how the applicant will ensure that
       its AmeriCorps Members will comply with the prohibitions on advocacy and other
       prohibited service activity.

We also suggest that the Corporation adopt a specific policy requiring its grantees and subrecipients
to notify the Office of the Inspector General when they suffer certain losses. Currently, there is no
specific means for OIG to collect information about losses of Federal funds or Corporation-financed
goods and services within the Corporation's grantees and subrecipients. Without this information,
OIG may not learn of incidents that should be investigated, and cannot discern whether Corporation-
funded programs should be adopting specific loss prevention techniques. Specifically, CNS should
require grantees and subrecipients to promptly (within 10 days) contact the Office of the Inspector
General whenever they discover information that indicates that there has been a loss of funds,
benefits, services or property acquired or financed (in whole or in part) by the Corporation. The
program should contact the OIG whether the loss is by misappropriation, theft, embezzlement or the
like, whether the loss occurred at the program or at a subrecipient, and regardless of whether the loss
has been recovered.

Finally, during this reporting period, we participated in reviews of proposed legislation and
regulations that were coordinated by the President's Council on Integrity and Efficiency. These
reviews focused on proposed laws and regulations that would generally affect the operations of
Federal agencies.
                         TABLE I
     INSPECTOR GENERAL REPORTS WITH QUESTIONED COSTS

                                                         Federal Costs
                                         Number   Questioned     Unsupported

                                                     (Dollars in thousandr)

     For which no management                14     $ 775             $ 464
     decision has been made by the
     commencement of the reporting
     period
     Which were issued during the           -
                                            13
     reporting period
     Subtotals (1 plus 2)                   27
     For which a management                  5
     decision was made during the
     reporting period
     (i)    dollar value of disallowed
            costs
     (ii)   dollar value of costs not       -
            disallowed
     For which no management                -
                                            22
     decision has been made by the
     end of the reporting period
     (3 minus 4)




6.   Reports with questioned costs for       6          $575
     which no management decision
     was made within six months of
     issuance
                         TABLE I1
     INSPECTOR GENERAL REPORTS WITH RECOMMENDATIONS
              THAT FUNDS BE PUT TO BETTER USE

                                                     Number   Dollar Value


A.   For which no management decision has been         1       $200,000
     made by the commencement of the reporting
     period

B.   Which were issued during the reporting period     0           0


C.   For which a management decision was made          1       $200,000
     during the reporting period


     (i)    dollar value of recommendations that
            were agreed to by management

            --     based on proposed management
                   action


            --     based on proposed legislative
                   action


     (ii)   dollar value of recommendations that
            were not agreed to by management

D.   For which no management decision has been         0
     made by the end of the reporting period
     Reports for which no management decision was      0
     made during six months of issuance
                        TABLE I11
  SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS

                                            Federal               Mgmt
Report                                      Dollars              Decision       Status as of
Number           Name of Grantee           Questioned             Due        September 30,1996
                                        (Dollars in thousands)

          Commonwealth of                                         3/25/96 Management
          Kentucky                                                        decision not received
          Woodrow Wilson National
          Fellowship Foundation
          Arizona-Mexico
          Cornrnission/Border
          Volunteer Corps
          National Association of
          Community Health
          Centers, Inc.
          CNS Grants Management
          ACORN Housing
          Local Initiatives Support
          Corporation
          Georgia Department of
          Community Affairs




* Amount questioned less than $1,000.
                              TABLE IV
         SIGNIFICANT REPORTS DESCRIBED IN PRIOR SEMIANNUAL
                   REPORTS WITHOUT FINAL ACTION

                                                       Mgmt.
  Report                                     Date     Decision
  Number                      Title         Issued      Due      Final Action

For which no management decision has been received
96-02           Woodrow Wilson National
                Fellowship Foundation
96-04           Arizona-Mexico
                Commission/Border
                Volunteer Corps
96- 10          CNS Grants Management
96-2 1          ACORN Housing
96-28           Local Initiatives Support
                Corporation
For whichfinal action has not been reported
94-HQ-54        Portland Youth Service      7/27/94   Received       **
                Corps                                 4/29/96
95-0 1          National Association of     5/8/95    Received       **
                Child Care Resource                   3/29/96
                Referral Agencies
95-03           Arkansas Division of        8117/94   Received       **
                Volunteerism, Delta                   4130196
                Service Corps
95-04           American Institute of       4/24/95   Received       **
                Public Service                        3/29/96

* Management decision is overdue.
** Final action has not been reported.
                         INDEX TO REPORTING REQUIREMENTS OF
                                THE INSPECTOR GENERAL

IG Act ~ e f e r e n c e *                         Reporting Requirement                             Page


Section 4 (a)(2)             Review of Legislation and Regulations.

Section 5 (a)(l)             Significant problems, abuses, and deficiencies.

Section 5 (a)(2)             Recommendations with respect to significant problems, abuses, and
                             deficiencies.

Section 5 (a)(3)             Prior significant recommendations on which corrective action has not
                             been completed.

Section 5 (a)(4)             Matters referred to prosecutive authorities.

Section 5 (a)(5)             Summary of instances where information was refused.

Section 5 (a)(6)             List of audit reports by subject matter showing dollar value of
                             questioned costs and recommendations that funds be put to better use.

Section 5 (a)(7)             Summary of each particularly significant report.

Section 5 (a)@)              Statistical table showing number of reports and dollar value of
                             questioned costs.

Section 5 (a)(9)             Statistical table showing number of reports and dollar value of
                             recommendations that funds be put to better us.

Section 5 (a)(10)            Summary of each audit issued before this reporting period for which
                             no management decision was made by end of reporting period.

Section 5 (a)(l 1)           Significant revised management decisions.


Section 5 (a)(] 2)           Significant management decisions with which the Inspector General
                             disagrees.




- --   - -            -p      -            -   -   - --      -      -       -




*Refers to sections in the Inspector General Act of 1978, as amended.
      SUMMARY REPORT OF ACCOMPLISHMENTS FOR
                 FISCAL YEAR 1996



                              CNS OIG Performance Measures



                 Investigations                                                 Increase

     Caseload                                                                      16
     Referrals                                                                      6




             Audit


     Number of Reports                                                             15
     Questioned Costs                                                         $ 1,620,000

     Costs per audit hour
         OIG staff
         Contracted Services
     Timeliness                                                                    --


     * OIG cost per hour estimate is based on the total salary and beneJits costs for audit
     stafldivided by direct hours charged to audit assignments.

     **from inception of a grant auditheview through issuance of the final report and
     thus including a 30 day response period. In FY 1996 this statistic was impacted
     somewhat by the government shutdowns.


Resources Provided:

Our FY 1996 appropriation was $2 million. The Summary of Obligations and Expenditures
(page 32) reports how we spent our appropriated funds.
What we accomplished vis a vis what we proposed to do:

In requesting its fiscal year 1996 budget, the OIG indicated that it would use its appropriation for
activities in several areas. The table below presents our accomplishments in those areas.


      Proposed in                                                                                      Questioned
     FY 1996 Budget                                     Accomplished                                     Costs
        Request                                                                                        (In thousands)



      Perform audits of       We continued this process through a survey of CNS financial
      CNS' financial          systems to recommend corrective actions CNS should take in order
      reports                 to produce auditable financial statements. The survey, performed
                              by Williams Adley & Company LLP and Arthur Andersen LLP,
                              resulted in 99 findings and recommendations. We testified on the
                              results of the survey and our plans to review CNS planned
                              corrective actions on March 19, 1996 and May 2 1, 1996.

                              Congress in H. Rept. 104-537, the Conference Report on the
                              Omnibus Consolidated Recessions and Appropriations Act of
                              1966), request the OIG follow-up on CNS' corrective actions. OIG
                              contracted for a two-part follow-up study by Arthur Andersen. The
                              work began in August. The results of the first assessment will be
                              released during the first quarter of FY 1997; the results of the
                              second are presently scheduled to be reported during the third
                              quarter of FY 1997.

      Audit CNS' new          We contracted for an audit of the CNS Education Benefits Trust
      programs and            Fund by KPMG Peat Manvick LLP. Although the new systems
      systems                 designed to support the Trust Fund were reviewed as part of the
                              auditability survey, the Trust Fund's activities have increased
                              significantly and the Fund's day to day transactions have had little
                              scrutiny. During the final quarter of FY 1996, CNS prepared
                              financial statements covering the Trust Fund's activities from
                              inception through FY 1995 and presented them to our office for
                              audit in September 1996. The audit has begun and we expect to
                              release our final report during the third quarter of FY 1997.
      Review grantees         Believing that it can be more effective to assess the vulnerability of
      and subrecipients       grantee systems and prevent the loss of Federal funds, rather than
      receiving large         trying to recover misspent funds after the fact, we reviewed grantee
      Corporation grants      accounting and Federal reporting systems for a number of recently
      or those determined     awarded CNS grants. Most of the reviews have revealed financial
      to be of high risk to   issues that should be resolved to improve grantee financial
      determine the           management and reporting. Most of the issues that we have
      adequacy of their       found are similar to those found in other Federal grant programs;
      accounting controls;    for example, failure to comply with grant provisions, inadequate
      e.g. their ability to   management control systems and inappropriate or undocumented
 Proposed in                                                                                     Questioned
FY 1996 Budget                                        Accomplished                                 Costs
   Request                                                                                       (In thousands)

            ---    ~   --       -           --       -        -                -   -       -

 :omply with CNS            :osts for grantee personnel charges. Nonetheless, we are beginning
 md Federal                 Lo see trends that require addition monitoring by CNS management
 -eporting and other        md OIG; at this time, we are pursuing matters related to grantees'
 mequirements               :barging expenditures for administrative staff to budgeted program
                            :osts (rather than as administrative) and AmeriCorps Members'
                            time records.

                            Final reports were issued f o c

                            New Orleans Youth Action Corps (96-01)
                            Woodrow Wilson National Fellowship Foundation; (96-02)
                            Youth Build USA, Inc. ( 96-03)
                            Arizona-Mexico Commission/Border Volunteer Corps (96-04)
                            National AIDS Fund (96-05)
                            National Center for Family Literacy (96-06)
                            The Arc of the United States (96-07)
                            National Association of Community Health Centers, Inc. (96-08)
                            Home Instruction Program for Preschool Youngsters, USA (96-1 1)
                            Council of Great City Schools (96- 14)
                            Blackfeet Nation (96-1 7)
                            Fort Belknap Community Council ( 96-1 9)
                            Summerbridge National (96-24)
                            New York University (96-25)
                            Local Initiatives Support Corporation (96-28)
                            National Council on Educational Opportunities (96-29)
                            [ Have A Dream Foundation (96-37)
                            Oneida Indian Nation of New York (96-41)
                            Mid-Atlantic Network of Youth and Family Services (96-43)

                                     Questioned Costs - Reviews



                            Work in progress includes:

                            YMCA of USA
                            Kansas City Consensus
                            YouthNet of Greater Kansas City
                            Legal Services Corporation
                            National Council of Churches of Christ in the USA
                            National Organization for Victim Assistance
                            National Alliance for Veteran Family Assistance
 Proposed in                                                                                  Questioned
FY 1996 Budget                                   Accomplished                                   Costs
   Request                                                                                    (In thousands)



 Perform audits of     Final reports have been issuedfor:
 grants or contracts
 including those       Northwest Service Academy (96- 12)
 where                 Greater Miami Service Corps (96- 16)
 noncompliance is      Public Allies (96-20)
 suspected             ACORN Housing Corporation (96-2 1)
                       East Bay Conservation Corps (96-33)
                       Georgia Department of Community Affairs (96-34)
                       Montana Conservation Corps, Inc. (96-35)
                       Los Angeles Conservation Corps (96-39)
                       Bowie State University (96-51)

                                Questioned Costs - Audits

                       Work in progress includes:

                       Oregon Youth Conservation Corps
                       Children's Health Fund
                       Pennsylvania Association of Colleges and Universities
                       Greater Miami Service Corps (DCAP grant)


 Conduct               We began FY 96 with 16 previously-opened investigative actions.
 investigations as     During FY 96 we opened 39 investigative actions and closed 29,
 needed and operate    leaving 26 actions pending at the end of the fiscal year. Six
 the Hotline.          criminal investigations were referred for Federal prosecution during
                       the year; one was accepted for prosecution, three were declined,
                       and two are pending prosecution review. We received 64 Hotline
                       calls during FY 96, resolving the majority upon receipt or shortly
                       thereafter.
                       During FY 96 we opened approximately 40% more investigative
                       actions than we opened in FY 95. We closed more than twice as
                       many investigative actions in FY 96 than we closed in FY 95.
                       During FY 96 we also referred three times as many criminal
                       investigations for prosecution than we did in FY 95.
                       Three of our more significant criminal investigations currently
                       involve the Department of Justice; one matter has been accepted for
                       prosecution and two remain under review. In two additional
                       criminal investigations Corporation management took
                       administrative action against employees after the U.S. Attorney
                       declined to prosecute. One employee was dismissed and the other
                       suspended without pay for two days.
                                -        --




 Proposed in                                                                                  Questioned
FY 1996 Budget                                   Accomplished                                   Costs
   Request                                                                                    (In thousands)

                                    -- -               - -




                       Our most significant non-criminal investigation involved
                       allegations that AmeriCorps Members were directed and allowed,
                       by a grantee partner, to participate in prohibited activities. The
                       Corporation decided not to renew the grant.


 Review Single         We processed 293 reports during fiscal year 1996. Of these,
 Audit Act reports     nineteen contained findings relevant to CNS grantees. Our cost to
 for CNS grantees      perform these reviews exceeded $50 thousand. Therefore, we
                       enthusiastically support OMB's revisions to the Single Audit Act
                       and related initiatives to have Single Audit Act reports reviewed by
                       Clearing House personnel. We plan to discontinue reviewing these
                       reports during FY 1997 and rely on the clearing house. To that end
                       we are participating on the OMB task force to implement these
                       changes.

                                Questioned Costs - A- 133 Reports
                                                                                         --



 Review of Proposed    We reviewed 25 proposed management decisions (PMDs) during
 Management            the fiscal year and were in the process of reviewing seven PMDs
 Decisions             received in the last week of the fiscal year. Most were late. As of
                       September 30, 1996 there were seven audits or reviews with
                       overdue PMDs. We have begun an initiative to revise CNS' audit
                       resolution process to eliminate current problems in this area.


 Develop a strategic   We have continued to revise and build on the strategic plan
 plan for OIG based    established in FY 1995. That plan was designed to provide
 on CNS' risks and     coverage to CNS' operations over a four year period in the
 vulnerability         recognition that an office comprised of less than a dozen auditors
 assessment            and investigators could not cover every aspect of CNS' operation
                       in any one year. We have managed to cover most of the areas
                       scheduled for audit during FY 1995 and FY 1996. It was necessary
                       only to postpone work in two areas; and the postponements resulted
                       from Congressional committee requests to perform audits in other
                       areas.

                       We have distributed our strategic plan matrix and our annual plans
                       to CNS management on a regular basis to solicit their input. CNS
                       has requested additional coverage when certain situations requiring
                       OIG assistance arose. We have distributed the plan to CNS Board
                       of Directors on an annual basis and received their approval. We
                       annually submit the plan to Congressional Committees having
